U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

April 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Club One Casino, Inc. dba Club One Casino, et al. v. David Bernhardt,
Secretary of the Interior, et al., No. 20-846

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 18,
2020, and placed on the docket on December 23, 2020. The government’s response is now due,
after one extension, on April 12, 2021. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including May 12, 2021, within which to file the
government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

20-0846
CLUB ONE CASINO, INC., ET AL.
DAVID BERNHARDT, SEC. OF THE INTERIOR, ET
AL.

ROBERT AXEL OLSON
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 WILSHIRE BOULEVARD
12TH FLOOR
LOS ANGELES, CA 90036
310-859-7811
ROLSON@GMSR.COM

